No. 21-

IN THE SUPREME COURT OF THE UNITED STATES
JESUS RAUL BELTRAN LEON,
v.

Petitioner-Defendant,

UNITED STATES OF AMERICA,
Respondent.
APPLICATION FOR EXTENSION OF TIME TO
FILE A PETITION FOR A WRIT OF CERTIORARI

PATRICK W. BLEGEN
Counsel of Record
BLEGEN & GARVEY
53 W. Jackson
Suite 1424
Chicago, Illinois 60604
(312) 957-0100
One of the Attorneys for Petitioner,
Jesus Raul Beltran Leon.

TO THE HONORABLE BRETT M. KAVANAUGH, ASSOCIATE JUSTICE
OF THE SUPREME COURT OF THE UNITED STATES AND CIRCUIT
JUSTICE FOR THE SEVENTH CIRCUIT:
Pursuant to Supreme Court Rules 13.5, 22, and 30, Petitioner respectfully
requests an extension of time from the currently scheduled due date of November
11, 2021, up to and including January 10, 2022, to file a petition for a writ of
certiorari to review the decision of the United States Court of Appeals for the
Seventh Circuit in United States of America v. Jesus Raul Beltran Leon, 19-2615.
In the case below, the Seventh Circuit denied Petitioner’s direct appeal
(attached as Exhibit A) from his sentencing in the United States District Court
for the Northern District of Illinois. The order denying the appeal was issued on
August 13, 2021.
Petitioner is considering whether to file a petition seeking review of the
Seventh Circuit’s judgment. The jurisdiction of this Court will be invoked under
28 U.S.C. § 1254(1), and the time to file a petition for a writ of certiorari will
expire without an extension on November 11, 2021. This application has been
filed more than ten days in advance of the date on which the time for filing the
petition is to expire and is therefore timely.
1.

It is anticipated that the primary issue addressed in a petition for

certiorari will be the district court’s reference to and reliance on its own
nationality during sentencing proceedings, the district court’s reference to and
reliance on Petitioner’s assertion of the Fifth Amendment, and the district
court’s failure to recuse. These issues present complex legal arguments
2

necessitating more than the typical time allotted for the filing of a petition.
2.

In addition, Petitioner is incarcerated in South Carolina which is a

significant distance from counsel’s office in Chicago. Petitioner has requested
an in-person meeting to discuss the filing of a petition. One of undersigned
counsel’s co-counsel has endeavored to schedule an in-person meeting, but has
encountered delays related to lockdowns and quarantines related to COVID-19.
A meeting at the jail in South Carolina is currently scheduled for October 14,
2021.
3.

In addition, undersigned counsel is currently engaged in other

matters which limit counsel’s availability to work on this matter in advance of
the current due date. For example, counsel is currently engaged in trial
preparation in the matter of People v. Jennifer Del Prete, 2003 CF 199, the
retrial of a “shaken baby” murder trial in the Circuit Court of Will County.
Trial in that matter is scheduled for January 10, 2022, is expected to last two
weeks or more, and will involve several medical expert witnesses. Counsel is
also engaged in the preparation for sentencing in multiple matter including:

United States v. Theodore Phillips, 17 CR 266 (fraud prosecution in the United
States District Court for the Northern District of Illinois scheduled for
sentencing on November 19, 2021); United States v. Marie Pickett, 18 CR 129
(fraud prosecution in the United States District Court for the Northern District
of Illinois scheduled for sentencing on December 1, 2021); and, United States v.

Anthony Roth, 14 CR 326 (fraud prosecution in the United States District
3

Court for the Northern District of Illinois scheduled for sentencing on
December 7, 2021). Undersigned counsel is also serving as court-appointed
counsel under the Criminal Justice Act in a complex racketeering/murder
prosecution that began as a capital prosecution but for which the Department
of Justice recently declined to pursue the death penalty.
Accordingly, Petitioner respectfully requests that an order be entered extending
the time to file a petition from November 11, 2021, up to and including January 10,
2022.

Dated: October 12, 2021

Respectfully Submitted,
/s/Patrick W. Blegen
Patrick W. Blegen
Counsel of Record
BLEGEN & GARVEY
53 West Jackson
Suite 1424
Chicago, IL 60604
Telephone: (312) 957-0100
pblegen@blegengarvey.com

4

